2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Legal Briefs
Est. 1923

1-800-225-6964

(402) 342-2831

Fax: (402) 342-4850 No. 19-402

HOWARD L. BALDWIN, ET UX.,
Petitioners,
ve
UNITED STATES,
Respondent.

AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 24th day of October, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE CENTER FOR
CONSTITUTIONAL JURISPRUDENCE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required
to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOHN C. EASTMAN
ANTHONY T. CASO
Counsel of Record
Claremont Institute’s Center for
Constitutional Jurisprudence
c/o Dale E. Fowler School of Law
Chapman University
One University Drive
Orange, CA 92866
(877) 855-3330
caso@chapman.edu

Counsel for Amicus Curiae

Subscribed and sworn to before me this 24th day of October, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . Y
State of Nebraska . LE

My Commission Expires Nov 24, 2020

 

Notary Public

38796
 

Attorneys for Petitioners

Aditya Dynar New Civil Liberties Alliance (202) 908-6202
Counsel of Record Litigation Counsel
1225 19th Street NW, Suite 450
Washington, DC 20036

adi.dynar@ncla.onmicrosoft.com

Party name: Howard Baldwin, et al.

 

Attorneys for Respondent

Noel J. Francisco Solicitor General (202) 514-2217
Counsel of Record United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

[Pany name: United States of America

 

 
